No. 19-247
IN THE

CITY OF BOISE,

Petitioner,

v.

ROBERT MARTIN, LAWRENCE LEE SMITH, ROBERT
ANDERSON, JANET F. BELL, PAMELA S. HAWKES, AND
BASIL E. HUMPHREY,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit
BRIEF OF AMICI CURIAE
INTERNATIONAL DOWNTOWN
ASSOCIATION,
CALIFORNIA DOWNTOWN ASSOCIATION,
CENTRAL CITY EAST ASSOCIATION OF LOS
ANGELES, HOLLYWOOD PROPERTY
OWNERS’ ALLIANCE, HISTORIC CORE
BUSINESS IMPROVEMENT DISTRICT
PROPERTY OWNERS ASSOCIATION, AND
DOWNTOWN PROPERTY OWNERS
ASSOCIATION IN SUPPORT OF PETITIONER
MATTHEW D. UMHOFER
ELIZABETH A. MITCHELL
Counsel of Record
SPERTUS, LANDES, & UMHOFER LLP
617 W. 7TH STREET, SUITE 200
LOS ANGELES, CA 90017
(213) 205-6520
emitchell@spertuslaw.com

Counsel for Amici Curia

i

TABLE OF CONTENTS

PAGE

INTEREST OF AMICI CURIAE ................................ 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ............................................................... 2
ARGUMENT ............................................................... 6
I.

The Consequences of the Ninth
Circuit’s Decision Have Been
Devastating to its Cities ............................. 6
A. Los Angeles California .......................... 7
B. Seattle, Washington ............................ 11
C. Sacramento, California ....................... 14
D. Hollywood, California .......................... 17

II.

Outside the Ninth Circuit, the
Ambiguous Language and Circuit
Split is Wreaking Havoc ........................... 19
A. Austin, Texas ....................................... 20
B. Chicago, Illinois ................................... 22
C. Indianapolis, Indiana .......................... 24
D. Baltimore, Maryland ........................... 25

CONCLUSION.......................................................... 27

ii

TABLE OF AUTHORITIES
Cases

Page(s)

Martin v. City of Boise
920 F.3d 584 (9th Cir. (2019) ......................... passim
Court Documents
Declarations in Support of Motion to Intervene at
Docket No. 120-3, Mitchell v. City of Los Angeles, et
al., (C.D. Cal. June 24, 2019) (No. 16:cv-01750SJO-JPRx)............................................................... 9
Other Authorities
Mitchell Armentrout, Massive Tent City cleanup
biggest in recent memory, residents say, Chicago
Sun Times (Mar. 29, 2019),
https://chicago.suntimes.com/2019/3/29/18458338/
massive- ................................................................. 23
Hayleigh Colombo, Indianapolis grappling with
increase in deaths among homeless population,
Indianapolis Business Journal (Jan. 24, 2019),
https://www.ibj.com/articles/72185-indianapolisgrappling-with-increase-in-deaths-amonghomeless-population .............................................. 24
Castellow, J., Kloos, B., Townley, G., Previous
homelessness as a risk factor for recovery from
serious mental illnesses. Community Mental
Health Journal, vol. 51, pp. 674-84 (Aug. 2015)... 14
Mayor Eric Garcetti, LA Homeless Growing Faster
than Homeless Housing, CityWatch
(June 13, 2019) ........................................................ 7

iii

Martin Gould, California’s homeless crisis engulfs its
capital as Sacramento’s business owners tell how
they confront naked junkies and streets covered in
feces, urine, and syringes—with no solution in
sight, Daily Mail (Aug. 28, 2019, 12:19 PM),
https://www.dailymail.co.uk/news/article7396585/Californias-homeless-crisis-engulfscapital-Sacramentos-people-confront-nakedjunkies.html ........................................................... 16
Joel Grover and Amy Corral, LA’s Rat Problem
Grows Even After City Cleans Up Trash Heaps
Revealed by NBC4 I-Team, NBC Los Angeles (June
10, 2019, 10:24 PM),
https://www.nbclosangeles.com/news/local/LACrawling-With-Rodents-511112152.html............... 8
Joel Grover and Amy Corral, Your Insurance is
Canceled Because of Homeless Tent Fires, NBC Los
Angeles (Sept. 23, 2019, 10:54 PM),
https://www.nbclosangeles.com/news/local/LAHomeless-Encampment-Fires-Insurance-RatesTents-Homelessness-561145811.html .................. 10
Theo Hayes, Crews working to offer resources to
homeless during bitter cold, WBAL TV 11, show
transcript (Jan. 30, 2019, 5:17 PM),
https://www.wbaltv.com/article/baltimorehomeless-bitter-cold-conditions/26090995............ 27
Matthew Hendrickson, Woman sexually assaulted at
homeless encampment after man promised to find
her shelter, Chicago Sun Times (July 11, 2019, 4:48
PM),
https://chicago.suntimes.com/2019/7/11/20690686/t
ent-city-homeless-camp-chicago-sexual-assaultcrime-kenneth-horner ........................................... 24

iv

Evelyn Holmes, Propane tank explodes at South Loop
tent city, 80 homeless people forced to move, ABC
Chicago (Jan. 30, 2019),
https://abc7chicago.com/propane-tank-explodes-atsouth-loop-tent-city-80-homeless-peoplemoved/5113652/ ..................................................... 23
Eric Johnson, Seattle is Dying, KOMO News (Mar.
14 2019), https://komonews.com/news/local/komonews-special-seattle-is-dying .......................... 11, 13
Eric Leonard, Crime Amongst LA’s Homeless
Population Rises Again, NBC Los Angeles (Feb. 13,
2019, 3:06 AM),
https://www.nbclosangeles.com/news/local/CrimeAmongst-LAs-Homeless-Population-Rises-Again505807741.html) ...................................................... 8
Scott P. Lindsay, System Failure: Report on Prolific
Offenders in Seattle’s Criminal Justice System
(Feb. 2019),
https://downtownseattle.org/files/advocacy/systemfailure-prolific-offender-report-feb-2019.pdf ........ 12
Steve Lopez, Column: He died Sunday on a West L.A.
sidewalk. He was homeless. He is part of an
epidemic, L.A. Times (Sept. 4, 2019, 10 AM),
https://www.latimes.com/california/story/2019-0904/homeless-deaths-los-angeles-coroner-record ..... 9
Tom Schuba, Homeless man shot to death at “Tent
City” in South Loop: state police, Chicago Sun
Times (Feb. 19, 2019),
https://chicago.suntimes.com/2019/2/19/18355088/h
omeless-man-shot-to-death-at-tent-city-in-southloop-state-police ..................................................... 23
Nicholas Slayton, Crime Rises Again in Downtown,
Los Angeles Downtown News (Jan. 15, 2019),

v

http://www.ladowntownnews.com/news/crime-risesagain-in-downtown/article_19c44618-1834-11e98cc9-0b48238c2c95.html .......................................... 8
Treffert, DA, Dying With Their Rights On, American
Journal of Psychiatry, 130(9), p. 1041
(Sept. 1973) ............................................................ 14
Odette Yousef, Where can homeless people pitch tents
in Chicago?, Chicago Coalition for the Homeless
(Oct. 23, 2017),
https://www.chicagohomeless.org/wbez-canhomeless-people-pitch-tents-chicago/ ................... 22
Homeless woman sexually assaulted in “Tent City” in
Chicago, Fox Chicago (Apr. 3, 2019),
https://www.fox32chicago.com/news/homelesswoman-sexually-assaulted-in-tent-cityin-chicago ............................................................... 23
Sacramento County Department of Health Services,
Sacramento County 2018 Homeless Deaths Report:
1/1/2017-12/31/2017 (Nov. 16, 2018),
https://dhs.saccounty.net/PRI/Documents/Health%
20Care%20for%20the%20Homeless/Meeting%20M
aterials/2018/20181116/Homeless%20Deaths%20R
eport%202017%20%20PowerPoint%20Presentation.pdf ................... 14

1

INTEREST OF AMICI CURIAE 1
The Ninth Circuit’s decision in Martin has
inflamed the homelessness crisis by fomenting
uncertainty among local governments struggling to
balance their need for clean and safe streets, and the
civil rights of those who live on them. And as
governments’ hands are being tied, the private sector
is left little choice but to intervene for the public good
or risk ruin.
The inter-circuit inconsistencies fostered by
Martin and the ambiguous language used by the
Ninth Circuit has flummoxed local governments
throughout the country—which in turn has had a
profoundly troubling impact on homeless and housed
alike. As cities withdraw services, public safety,
health, and welfare declines rapidly. When citizens
are left in chaos, compassion and empathy begin to
erode. This Court’s intervention is necessary to
resolve the conflict among circuits and clarify the role
local government is permitted to take to ensure the
safety of all its citizens.
The International Downtown Association (“IDA”)
is a trade association with voluntary membership
aimed at urban place management organizations, notfor-profit quasi-government entities managing city or
town centers. IDA is a world leader and champion for
vital and livable urban centers. Its members include
Rule 37 statement: All parties received timely notice of amici’s
intent to file this brief; their consent letters have been lodged
with the Clerk. No counsel for any party authored this brief in
whole or in part and no person or entity other than amici and its
members funded its preparation or submission.
1

2

business improvement districts, community benefit
districts, downtown development authorities, town
center managers, and city agencies that oversee the
development of the municipalities’ city centers.
California Downtown Association, like IDA, is a
representative membership association with the
primary purpose of exchanging information pertinent
to business districts and formulating solutions to
mutually shared problems, including helping publicprivate partnerships manage the increasingly difficult
issues surrounding those experiencing homelessness.
Central City East Association is the principal
advocate for property owners, businesses, employees,
and residents of the area known as “Skid Row” in Los
Angeles. Skid Row has become known as the epicenter
for homelessness in this country, with the highest
concentration of homeless, both sheltered and
unsheltered, in its 50-square blocks. Hollywood
Property Owners’ Alliance manages business
improvement districts in Hollywood, California.
Historic Core Business Improvement District
Property Owners Association, and Downtown
Property Owner Association manage business
improvement districts in their areas: the “Historic
Core” section of Downtown Los Angeles, and the
“Fashion District” section of Downtown Los Angeles
respectively.
INTRODUCTION AND SUMMARY OF
ARGUMENT
With Martin handcuffing local governments’
ability to actively address homeless issues, the private
sector has been forced to fill that void, conducting

3

outreach, cleaning up streets, and connecting
homeless with services at significant cost. But without
traditional police powers, local management entities
are unable to protect themselves or their memberbusinesses from the effects of government
abandonment. The Ninth Circuit’s decision thus
erodes local communities not only on a basic
humanitarian level, but also undermines the very
economic engine that powers most of these cities.
Throughout the Ninth Circuit, ordinary people—
small business owners, shop clerks, students—find
themselves unable to secure basic government
assistance in matters of safety and sanitation. Los
Angeles’ Skid Row is a prime example. Skid Row, a
50-square-block area in the heart of Downtown L.A.,
has long been a locus of human hardship. But in large
part because of the Ninth Circuit’s decision in Martin
v. City of Boise, the hardship has become inhumanity.
According to the Los Angeles Homeless Services
Authority, almost 5,000 homeless individuals live in
the one-square-mile of Skid Row, and approximately
60 percent are unsheltered and living on the
sidewalks.
The build-up of property makes it
impossible to determine what items are a health or
safety risk. The mountains of garbage, food waste,
human waste, and contaminated items are breeding
grounds for rats, which in turn breeds disease. The
anonymity afford by tents permits criminals to peddle
their illicit wares—weapons, narcotics, even
humans—undisturbed. In one of the most prosperous
cities in the country, innocent people—small children

4

whose parents lost their jobs, residents who are trying
desperately to claw their way out of the cycle of
homelessness and poverty, small business owners
trying to make a living—now face conditions worse
than those found in developing countries.
The
uncertainty unleashed by Martin has unquestionably
inhibited the ability of local government to address
this human tragedy, and as a result, the problem has
multiplied.
Other cities and towns throughout the Ninth
Circuit are experiencing similar crises. In Seattle,
narcotics possession of up to 3 grams is tolerated,
which—combined with the explosion of persons living
in public—has led to an open-air drug market where
heroin is injected in front of children and people
wander through the streets in a drug-induced stupor.
Long-standing businesses are closing their doors due
to crime. In one district in Sacramento, tent
encampments have increased 466% since Martin was
decided; crime both by and on homeless individuals
has risen. And in Hollywood, where the community
has historically embraced its homeless residents, the
systems and services have been overwhelmed. As
much as the community fights to lift those
experiencing homelessness out of poverty, without
incentive to stay clean and off the streets, many—if
not most—revert to old habits. Throughout the Ninth
Circuit, our cities have lost one of their most
important tools to ensure safety and sanitation while

5

connecting homeless
enforcement of the law.

persons

with

services:

The legal conflict between the circuits forces cities
nationwide to choose between their respective
obligations to maintain safe and clean cities and fear
of violating the constitution. The private sector,
through business management associations, has
made every effort to fill the shoes of local governments
to find solutions, but without constitutional authority
to regulate conduct, that effort is overwhelmed by the
depth of the crisis.
Just three months ago in Austin, Texas the city
council repealed or significantly amended several
ordinances due to the increasing confusion about
government’s authority in regulating its own streets.
The number of people sleeping on sidewalks in
downtown Austin has since increased by 135%,
causing pandemonium in the community. In cities like
Baltimore, Indianapolis, and Chicago, local
governments remain in flux, unsure about how to
address these issues in ways that are both humane
and constitutionally permissible. This has resulted in
tragedy on the deepest levels: people dying subject to
the elements, violent attacks on and by homeless
individuals, sexual assaults on homeless women, the
mentally ill and drug-addicted left to languish without
the means to help themselves or mental acuity to
accept help from others.
With the lack of clarity in the law, local
governments have delegated by abnegation to the
private sector which is limited in its capabilities.

6

Allowing our homeless neighbors to reside on the
streets is no good for anyone. For the businesses this
means a struggle. For the homeless, this may mean
death. For all of us it means a loss of humanity.
ARGUMENT
I. The Consequences of the Ninth Circuit’s
Decision Have Been Devastating to its Cities
Today’s homeless crisis has been building for
years. Simultaneously, urban centers, the traditional
powerhouse of the local economy, have experienced a
resurgence in development, with intentional efforts to
encourage community at all levels. Due to various
policy decisions and legal challenges, city
governments have become increasingly ineffective at
managing this crisis. And so the private sector has
embraced this responsibility: Centro San Antonio
invested $140,000 in homeless outreach and street
clean-up programs; Downtown Seattle Association
formed a Human Services Committee to identify roles
for the business community in each of the city’s most
prominent homeless issues; Washington D.C.’s
Downtown Business Improvement District manages
and coordinates services at the Downtown Service
Center;
Hollywood’s
Entertainment
Business
Improvement District helped established Hollywood
4WRD (“Four Walls, a Roof, and a Door”), a broad
coalition coming together to coordinate homeless
outreach, expand housing alternatives, connect
homeless person with existing services, and develop
new services as needs are identified. But without the
constitutional authority to regulate behavior and

7

enforce order, the crisis grown larger than the private
sector can manage. With the lower court’s order in
Martin v. City of Boise, cracks emerge in the dam. The
practical result has been nothing short of disastrous
for the housed and the homeless alike.
A. Los Angeles, California
Los Angeles current ability to house all homeless
within the city, 2 and will not for at least a decade, if
ever. Thus, as accurately predicted, is has simply
“abandon[ed] enforcement of a host of laws regulating
public health and safety.” Martin v. City of Boise, 920
F.3d 584, 594 (9th Cir. 2019) (Smith, J., dissenting).
Citing Martin, the City of Los Angeles entered into
a settlement agreement earlier this year permitting
homeless individuals to live and maintain a nearly
unlimited amount of property on the sidewalks in Skid
Row, a 50-square block area in the heart of downtown
L.A. The Los Angeles City Attorney has explained
that after Martin, the city had no choice but to
abandon enforcement of both its anti-camping and
property restriction laws. Now that policy has
extended city-wide and unincorporated areas of Los
Angeles County have followed suit.
According to Los Angeles Housing Services
Authority, the homeless count in Los Angeles has
2 Los Angeles’ homeless population is growing at a rate that faroutpaces its housing provision, with no plan even being discussed
that would meet Martin’s high standard. Mayor Eric Garcetti,
LA Homeless Growing Faster than Homeless Housing, CityWatch
(June 13, 2019).

8

nearly doubled in the last three years; Los Angeles
County has nearly 60,000 homeless persons,
approximately 75% of whom are unsheltered. By far
the highest concentration of those unsheltered is
found in Skid Row. With increased population
density, unlimited property accumulation has become
a hotbed for flea-infested rats and other vermin, which
are largely responsible for the recent outbreaks of
medieval disease. 3 Large items also obstruct the free
passage and use of the streets and sidewalks. With
increased homeless encampments has come rampant
drug sales and use which in turn provides a platform
for violent assaults and property crimes. 4 The
structures, garbage, human waste, and other detritus
allowed to flourish creates an ongoing situation
throughout Skid Row that is crippling for local
See e.g., Joel Grover and Amy Corral, LA’s Rat Problem Grows
Even After City Cleans Up Trash Heaps Revealed by NBC4 ITeam, NBC Los Angeles (June 10, 2019, 10:24 PM),
https://www.nbclosangeles.com/news/local/LA-Crawling-WithRodents-511112152.html
3

Eric Leonard, Crime Amongst LA’s Homeless Population Rises
Again, NBC Los Angeles (Feb. 13, 2019, 3:06 AM),
https://www.nbclosangeles.com/news/local/Crime-Amongst-LAsHomeless-Population-Rises-Again-505807741.html);
Nicholas
Slayton, Crime Rises Again in Downtown, Los Angeles
Downtown
News
(Jan.
15,
2019),
http://www.ladowntownnews.com/news/crime-rises-again-indowntown/article_19c44618-1834-11e9-8cc9-0b48238c2c95.html
(“The 2018 figures were higher than 2016 levels in almost every
category.”)
4

9

businesses, unlivable for residents, and often deadly
for those on the street. 5
The massive build-up of property and tents has
made the sidewalks unpassable: Charles Van Scoy,
who is restricted to a wheelchair is trapped in his own
home; Karyn Pinsky must walk with her young son in
a stroller in the middle of traffic. 6 The Inner-City Arts
Center had to hire security to walk with students and
staff to and from campus. Id. Business owners in the
area have suffered: customers cannot access their
businesses or are declining to hire them due to
conditions on the street, they are spending hundreds
of thousands of dollars on increased sanitation and
security measures and cannot maintain employees.
Id. Joseph Burke has lost tenants and hundreds of
thousands of dollars in client accounts. Id. Residents
and workers throughout the area are confronted daily
by disease, illicit drug sales and use, prostitution, and
general filth and squalor. Id. A single mother living
in the heart of skid row with her child regularly has
to disinfect her home because of the fleas that ride on
their pant legs as they walk past homeless
encampments surrounding their building. People are
5 Steve Lopez, Column: He died Sunday on a West L.A.
sidewalk. He was homeless. He is part of an epidemic, L.A.
Times (Sept. 4, 2019, 10 AM),
https://www.latimes.com/california/story/2019-09-04/homelessdeaths-los-angeles-coroner-record

See Declarations in Support of Motion to Intervene at Docket
No. 120-3, Mitchell v. City of Los Angeles, et al., (C.D. Cal. June
24, 2019) (No. 16:cv-01750-SJO-JPRx).

6

10

openly using drugs, urinating and defecating in
public. Id.
This travesty is not limited to the Skid Row area:
in the nearby Fashion District, approximately 400
people sleep on the streets every night without basic
services: trash pickup, toilets, showers, sinks, kitchen,
or laundry. At the flower markets, customer cars are
broken into and tents prevent patrons from loading
their vehicles. The industrial buildings have endured
fires from homeless camps, where heaters are set up
to keep people warm, open air fires are used to cook
food, utility wiring is tampered with to provide
electricity, and arson is committed due to some drug
or property dispute. In the first six months of 2019,
there were 65 fires just in this one small area.
Businesses are being dropped by insurance companies
because of the fire risks due to the homeless living on
their sidewalks. 7 Buildings have had to drastically
increase security. The Fashion District Business
Improvement District purchased hazmat suits and
special cleaning mats for their maintenance workers
who clean the sidewalks.
Local businesses have had to close public
restrooms to all guests due to pathogenic remnants
and misuse of such spaces for drug dealing, sleeping,
exposure, and assaults. The frequency of criminal
7 Joel Grover and Amy Corral, Your Insurance is Canceled
Because of Homeless Tent Fires, NBC Los Angeles (Sept. 23,

2019, 10:54 PM), https://www.nbclosangeles.com/news/local/LAHomeless-Encampment-Fires-Insurance-Rates-TentsHomelessness-561145811.html

11

conduct has expanded to the point where even
determined law enforcement officials can respond only
to the most violent conduct—and typically only after
serious injury has occurred. Recidivism is rampant as
even the few arrested quickly return to the streets.
A significant investment has been made in
downtown Los Angeles to build large-scale housing
developments to accommodate a larger population.
Yet now with the very real threats of exposure to
disease, hazardous waste, violence and crime on their
doorsteps, that population growth is beginning to
reverse; taking with it the economic engine driving the
local economy and those providing a significant source
of the much-needed homeless support.
B. Seattle, Washington
Over the last several years Seattle has experienced
a steady withdrawal of City services involving
individuals experiencing homelessness, peaking last
year with the Martin decision. Compounding this
problem is the federal consent decree Seattle Police
Department has been under, largely surrounding its
use of force (many involving homeless persons). While
the use of police was in many instances unsuitable, no
other city program has been instituted to replace
police contacts.
The City of Seattle has also stopped arresting
people with less than three grams of narcotics. 8 This
8 Eric Johnson, Seattle is Dying, KOMO News (Mar. 14 2019),
https://komonews.com/news/local/komo-news-special-seattle-isdying.

12

has created an environment of open-air drug use, with
people
shooting
heroin
and
smoking
methamphetamine in public with impunity. Id. Many
of these narcotics users are also suffering from mental
health issues, turning to opioids and other street
drugs to self-medicate. The proponents of this
approach cite the same arguments as the majority
opinion in Martin: that drug addicts are compelled to
use narcotics, and if they happen to be in public that
is not their fault. This drug culture is fueled by
shoplifting and trading in stolen goods, which are
often not prosecuted and as a result barely reported. 9
Shopkeepers must rotate managers and clerks to ease
the psychological burden of being on the front line of
this crisis.
Seattle’s regional economic boom has priced out
the entry and mid-level wage earners; as a result,
there are a high number of people who are connected
to Seattle through health care needs, jobs, and the
drug market but cannot afford housing. The mental
health system is broken, with very few inpatient beds
available. Homeless persons suffering from severe
mental illnesses are held until they are minimally
stable, then released without follow-up care. Certainly

Scott P. Lindsay, System Failure: Report on Prolific Offenders
Seattle’s Criminal Justice System (Feb. 2019),
https://downtownseattle.org/files/advocacy/system-failureprolific-offender-report-feb-2019.pdf
9

in

13

not all these issues were created by the courts, but
they do provide the fuel to the Ninth Circuit’s match.
The issues outlined above have created a
convergence zone in downtown Seattle of people living
on the streets in tents or make-shift lean-tos, without
bathrooms, using narcotics in the open, accumulating
property and refuse en masse, while city officials stand
by powerless to act. 10
Lou Bond manages Melbourne Tower, a beautiful
ten-story office building in the heart of downtown
Seattle near the city’s famous Pike Place Farmers
Market, the Convention Center, and the waterfront.
In the past year he has seen fighting, beatings,
stabbings, and shootings; he watches people inject
heroin all over their bodies, his staff cleans up needles
and human waste multiple times a day. He witnesses
people stealing and running out of stores, selling
stolen merchandise on the sidewalks, and passed out
on the sidewalks in front of his building. He calls
police and they tell him there is nothing they can do.
Last month Tija Petrovich was attending an art
walk presentation in Pioneer Square when her
partner was attacked by a mentally unstable
homeless man who picked her up off her feet and
slammed her into the wall, then turned to attack
others in the group. The month prior to that Tija’s life
was threatened. Before that she was attacked from
behind by a homeless woman with a bag of glass
bottles and metal objects. Studies have shown that
10

Johnson, Seattle is Dying, supra.

14

increased time spent experiencing homelessness leads
to higher levels of psychiatric distress, and lower rates
of recovery from mental illnesses. 11 By leaving
society’s defenseless to remain on the streets in the
name of compassion and civil rights, we are ensuring
their ultimate decline. By removing crucial tools from
our local governments to get people help, the lower
court in Martin is allowing them to die “with their
rights on.” 12
C. Sacramento, California
Sacramento’s River District has long been home to
multiple social services agencies and homeless
individuals. While there are more than 400 shelter
beds available in the district, there is also the highest
concentration of tents on sidewalks and in parks. In
July 2017, the tent count was under 30; today it is over
140 just in that one district. With a population of 1.5
million, Sacramento County counted 124 homelessrelated deaths in 2017. 13 If you are homeless in
Castellow, J., Kloos, B., Townley, G., Previous homelessness as
a risk factor for recovery from serious mental illnesses.
Community Mental Health Journal, vol. 51, pp. 674-84 (Aug.
2015).
11

Treffert, DA, Dying With Their Rights On, American Journal
of Psychiatry, 130(9), p. 1041 (Sept. 1973).
12

13

Sacramento County Department of Health Services,

Sacramento County 2018 Homeless Deaths Report: 1/1/201712/31/2017 (Nov. 16, 2018),

https://dhs.saccounty.net/PRI/Documents/Health%20Care%20fo
r%20the%20Homeless/Meeting%20Materials/2018/20181116/Ho

15

Sacramento, your life expectancy is reduced by 33%
(30 years for homeless women, 23 for homeless men).
Id.
Vaughn Medford is the general manager for
Sacramento Pipeworks, a climbing and fitness gym in
the River District. His building is surrounded on three
sides by homeless encampments, about which the City
says it can do nothing due to the Martin decision.
Recently one of the female residents from one of the
tents broke a building window and flung a feces-filled
towel inside; she returned later and attempted to
heave a bag filled with urine through the same
window. The month prior, one of his members
cancelled his membership in a letter, noting: “This
morning there was a man on the sidewalk outside the
open garage door. From the weight room I could see
him injecting IV drugs, his pants down and his
genitals fully exposed. He was in view of a number of
children who were also at the gym.” Due to the
building’s surroundings, the children served by the
center has been reduced drastically, from 1,558 in
2015 to only 500 projected in 2019.
Various management entities in Sacramento have
partnered with a group called Downtown Streets
Team who employee homeless individuals in
beautification projects in exchange for gift cards. The
program is effective, but only for those who want to
utilize its services; for those who, due to mental health
issues, drug addiction, or any other reason, wish to
meless%20Deaths%20Report%202017%20%20PowerPoint%20Presentation.pdf.

16

remain on the street without lawful employment,
there is no legal recourse.
According to the Downtown Sacramento
Partnership homeless count, there has been a 47%
increase in homeless persons living in public spaces
from 2017 to 2019. Comparing the first half of 2019 in
downtown Sacramento to the first half of 2018,
‘Business robbery’ increased 100%, ‘Robbery of
Person’ increased over 50%, ‘Business Burglary’
increased 33% and ‘Motor Vehicle Theft’ increased by
almost 30%. These increases not only reflect a change
in the ability to manage the public spaces around
businesses, but also an inability to manage criminal
elements.
Salon owner Liz Novak had to shut down her salon
because of the encampments outside her business,
with its concomitant urine, feces, garbage, and crime;
glass shop owner Robert Dutra was barricaded in his
business for an hour with his four-year old child until
the police could come. 14 The City needs tools to be able
to address the issues on a case-by-case basis. If
assistance is unwelcome or declined, city officials
must still have the means to enforce and maintain
public health and safety standards for the greater
good of everyone, including the homeless. Martin has
Martin Gould, California’s homeless crisis engulfs its capital
as Sacramento’s business owners tell how they confront naked
junkies and streets covered in feces, urine, and syringes—with
no solution in sight, Daily Mail (Aug. 28, 2019, 12:19 PM),

14

https://www.dailymail.co.uk/news/article-7396585/Californiashomeless-crisis-engulfs-capital-Sacramentos-people-confrontnaked-junkies.html.

17

created a hot seat where the most vulnerable among
us is left as prey for the predators, and somehow this
is celebrated as progress.
D. Hollywood, California
Hollywood—a neighborhood within Los Angeles,
but sufficiently distinct to require separate
discussion—is home to four business improvement
districts (“BIDs”), funded by self-imposed assessments
on property owners to secure public services beyond
what the city provides, such as additional waste
management, security and street cleaning. The
community was an early adopter of supportive
housing models and proactively worked to find offstreet solutions for Hollywood’s chronically homeless
and those who found more heartbreak there than
fame. Martin and its predecessors have, however,
eroded Hollywood’s prior success. The area has
experienced an increase in street encampments and in
quality of life crime, as law enforcement efforts,
hamstrung as they are, have been overwhelmed.
Hollywood embraced the City’s “bridge home” project,
an effort to temporarily house and ultimately stabilize
seventy chronic homeless locals. But those operating
the facility acknowledge that a substantial number of
entrants choose not to follow even their few
residential rules and return to the streets—where law
enforcement is, by virtue of the practical impacts of
Martin, unable to enforce anti-camping restrictions
even for those who have refused shelter. Hollywood’s
experience proves that even expensive temporary

18

shelter is no solution in the absence of coextensive law
enforcement.
Amber Mead, a Hollywood resident, watched as
police officers retrieved two machetes, drug
paraphernalia, and bags of human waste from a tent
blocking her path to work; she no longer considers
walking a viable commuting option. Jim Moushoul, a
small business owner, has had rocks hurled through
his windows on multiple occasions and has to clean
human waste from his business frontage on a daily
basis, often all from the same offenders after arrest
and prompt release. Public defecation, urination,
masturbation, and other forms of exposure have
become commonplace. Verbal and physical attacks on
women has imprisoned female residents in their own
homes and vehicles. Some businesses have taken to
escorting employees to lunch or, worse, insulate them
within office buildings by providing meals and other
amenities so they never have to venture onto
Hollywood’s streets.
Since the opening of the “bridge home” facility six
months ago, a project supported by the Hollywood
Entertainment District BID, BID employees have
conducted a weekly count of homeless throughout the
district and have seen a 50% increase. A survey of
nearly 1000 residents, business and property owners,
and local employees had startling results: 75%
described Hollywood as “very dirty/dirty” and 46%
characterized Hollywood as “very unsafe/unsafe,”
attributing these conditions most often to
homelessness.
The top four issues respondents

19

considered most important for Hollywood were
“homeless services” (83%), “cleanliness” (79%), “public
safety” (67%), and “disruptive street behavior” (63%),
again virtually entirely related to homeless
encampments. All this despite some 60 organizations
in Hollywood providing homeless services and the
BID’s expenditure of $2 million for supplemental
street cleaning services, removal of 15 tons of trash
per week from public homeless encampments, and $3
million for safety and security services.
The Hollywood community has been a good citizen,
welcoming a shelter and coordinating services and
providers for the benefit of those living on the streets
who truly need and want help. But without practical
street-level enforcement of quality of life protections
to discourage those who don’t want help from preying
on everyone else—protections as important for those
on the streets as for those who live, work, and visit
Hollywood—this most famous “city” in the world, built
on hope and visited by ten million people yearly, is
able to offer less and less.
II. Outside the Ninth Circuit, the Ambiguous
Language and Circuit Split is Wreaking
Havoc
Between the split of authority and the ambiguity
in the Martin order, cities are left baffled about how
to balance their obligations to maintain the safety,
health and welfare of its citizens with constitutional
rights of its homeless. Rather than grapple with these
issues and face costly litigation, cities even outside the
Ninth Circuit are throwing up their hands and

20

refusing to act at all. And just as in the Ninth Circuit,
the practical result has been disastrous.
A. Austin, Texas
Austin is suffering its own homelessness crisis. In
June of this year, in direct response to the Martin
decision and threats of nationwide litigation aimed at
extending Martin to other jurisdictions, Austin
amended multiple ordinances relating to homeless
activities. It is no longer a crime to “camp” or sit/lie
down in a public area unless that individual is
“intentionally, knowingly, or recklessly” a health or
safety threat or is making the use of public property
“unreasonably inconvenient or hazardous.”
Before the amendments, officers had a 98 percent
voluntary compliance rate; that is, they wrote
citations only two percent of the time they
encountered persons violating these ordinances.
Typically, officers and other city workers were able to
use these ordinances to incentivize homeless persons
to utilize social services. With the new ordinance
amendments, the number of people living on
downtown sidewalks just in the last couple months
has increased by 135 percent and homeless persons
have no incentive to utilize services…so they don’t.
Austin has consistently ranked in the top five
safest large cities in the United States.
Now
downtown office tenants are declining to renew leases.
Companies recently recruited to downtown are
expressing regret and failing to expand or sustain
Austin operations. Employees and residents report

21

being assaulted, aggressively pursued, and harassed
on their way to and from offices. Hotels report that
post-visitor survey show that an increasing number of
travelers say they will never return. Meeting and
convention groups are choosing to go to other cities
citing incidents of aggressive behavior and the
perception of lack of public safety as reasons.
Residents are making plans to move out of downtown.
For the past three months, this issue has nearly
consumed city management, city council members,
the Downtown Austin Alliance (DAA), and many key
stakeholders and citizens. It is driving a wedge into
the community at a time when it needs to be united in
its efforts to address homelessness. Incidents of
retribution targeting the homeless or their property
have been reported.
For many years the DAA has played a leadership
role in efforts to address homelessness. Since July 1,
there have been five community forums about the
ordinances that drew attendance of approximately
4,000 people. At most events, the audiences have
remained civil, but at others, attendees have become
quite heated, expressing anger, and resentment; a
clear reflection of compassion-fatigue.
In its September 18-20 meetings, the Austin City
Council once again considered amending the
ordinances. At a special-called Council meeting held
on September 18, 270 citizens testified. And, contrary
to the Council’s stated intention to implement
restrictions as more shelter, services and housing
were made available, there have been no new

22

emergency shelter beds, navigation centers or
services, temporary or permanent housing units
created or approved. Council postponed the vote,
citing the contentiousness of the meetings.
Without guidance from this Court, Austin remains
paralyzed and its community in crisis. Its homeless—
desperately in need of help—will begin to deteriorate
and soon may resemble those in California.
B. Chicago, Illinois
Chicago’s homeless response is inconsistent, based
on a series of vague municipal codes, an ambiguous
“Homeless Bill of Rights,” and legal settlements that
may or may not be binding on the city. 15 While the
city pays lip service to addressing its homeless
population, it leans heavily on the business
management associations, such as Chicago Loop
Alliance, for primary contact. The Chicago Loop has
outreach ambassadors, street clean-up teams and
protocols in place to address concerns like aggressive
panhandling or tents set up that block public rightsof-way. Yet when the situation goes beyond voluntary
compliance, and criminal conduct needs to be

Odette Yousef, Where can homeless people pitch tents in
Chicago?, Chicago Coalition for the Homeless (Oct. 23, 2017),

15

https://www.chicagohomeless.org/wbez-can-homeless-peoplepitch-tents-chicago/.

23

addressed, city officials are reticent to act due to the
uncertain legal climate.
There is a long-standing tent encampment in an
area of Chicago known as “South Loop.” In January
of this year, a propane tank exploded; 16 in February
one man shot and killed another over an argument
about a heater. 17 City workers came in and tried to
connect residents with shelters and other housing,
while cleaning the area; many refused and chose to
stay. 18 In April a woman was sexually assaulted by a
fellow resident. 19 In July, another woman was
sexually assaulted and severely beaten after one of the
encampment residents promised to provide her
Evelyn Holmes, Propane tank explodes at South Loop tent city,
80 homeless people forced to move, ABC Chicago (Jan. 30, 2019),

16

https://abc7chicago.com/propane-tank-explodes-at-south-looptent-city-80-homeless-people-moved/5113652/.

Tom Schuba, Homeless man shot to death at “Tent City” in
South Loop: state police, Chicago Sun Times (Feb. 19, 2019),

17

https://chicago.suntimes.com/2019/2/19/18355088/homelessman-shot-to-death-at-tent-city-in-south-loop-state-police.

Mitchell Armentrout, Massive Tent City cleanup biggest in
recent memory, residents say, Chicago Sun Times (Mar. 29,

18

2019),
https://chicago.suntimes.com/2019/3/29/18458338/massive-

Homeless woman sexually assaulted in “Tent City” in
Chicago, Fox Chicago (Apr. 3, 2019),

19

https://www.fox32chicago.com/news/homeless-woman-sexuallyassaulted-in-tent-city-in-chicago.

24

shelter. 20 Meanwhile garbage builds and unsanitary
conditions thrive. Every attempt to clear and clean the
area has been met with threats of legal challenge and
city officials unclear on the law governing these
issues, sit on their hands. The encampment remains
today.
C. Indianapolis, Indiana
In response to a lawsuit several years ago,
Indianapolis established a “Homeless Bill of Rights”
modeled after Chicago’s.
While the intent was
honorable and noble, in practice it has become more
difficult to connect homeless people with services.
Since 2015, while the number of homeless persons has
steadily decreased, the number of people who are
dying after experiencing homelessness has been
steadily increasing. 21 Homeless individuals are now
exposed to the elements for longer periods of time,
many of whom are self-medicating with alcohol and
narcotics; the result is not only leading to increased

Matthew Hendrickson, Woman sexually assaulted at
homeless encampment after man promised to find her shelter,

20

Chicago Sun Times (July 11, 2019),
https://chicago.suntimes.com/2019/7/11/20690686/tent-cityhomeless-camp-chicago-sexual-assault-crime-kenneth-horner.

Hayleigh Colombo, Indianapolis grappling with increase in
deaths among homeless population, Indianapolis Business

21

Journal (Jan. 24, 2019), https://www.ibj.com/articles/72185indianapolis-grappling-with-increase-in-deaths-amonghomeless-population.

25

deaths by natural causes, but also drug overdoses,
suicides, and homicides.
Peggy Thomas lived on the streets for over a
decade when she was found in winter two years ago
“basically frozen to the ground, her heart rate almost
gone.” She soon was placed in permanent housing, but
never fully recovered “mentally or physically” and
died within two years. Id.
Downtown Indy is a private, nonprofit
organization focusing on developing, managing, and
marketing downtown Indianapolis. It is helping to
coordinate multiple agencies, support building new
housing units, and reach into this crisis on a groundlevel; yet like other cities, its effectiveness is limited
by its lack of constitutional authority bestowed
exclusively on the government. And yet for reasons of
legal ambiguity, the local government is not acting
and people, like Peggy, are dying.
D. Baltimore, Maryland
As in other large cities, Baltimore is left in the dark
on how to address its homeless issues. And like
Seattle, the issue is more complicated because the
city’s police department has been under a consent
decree for years. With insufficient guidance from the
courts on the legality of ordinances addressing the
myriad of homeless issues, the city has declined to
pass virtually any restrictions on public living. Even
high-level nuisance laws are ignored. Aggressive carwindow-washing by homeless people has become an
issue: people are trapped in their cars and intimidated

26

into giving money for a service they did not ask for; if
payment is declined, often there is retaliation. Yet the
city has no restrictions against aggressive
panhandling, largely due to the confusion about the
constitutionality of such an ordinance.
The city now looks to the private sector, specifically
the Downtown Partnership of Baltimore, for virtually
all homeless support, including helping homeless
persons obtain identification, connecting them with
families where possible, finding temporary or
permanent housing, and addressing immediate
concerns like food and clothing. Baltimore Police
Department is even disbanding its Homeless
Outreach Team for lack of efficacy. When a homeless
individual is trespassing on private property, and that
property owner or store manager calls the police, if an
officer even arrives the owner or manager is typically
told that unless there was a violent assault, the officer
will not address it. Even when a person is in crisis
officers are rarely willing to justify a petition for
emergency assistance because of the legal
implications.
The City of Baltimore’s unwillingness or inability
to act effectively on this issue did not start with
Martin, but Martin has muddied the already opaque
waters surrounding a local government’s legal
capabilities in addressing homeless-related issues. It
is easier to do nothing than to do the wrong thing and
face a lengthy court battle or (perhaps worse
politically) bad press. Yet that means once again the
onus is placed on the private sector to try to cover

27

what is typically a government responsibility. And
yet, once again, the private sector lacks the authority
to enforce laws, thereby making its efforts minimally
effective. When a person rebuffs efforts to re-connect
her to civilization, and there is no incentive for her to
do so, she is subject to the elements … and in
Baltimore’s harsh weather, that means death. 22
CONCLUSION
Cities want to help. Private businesses and
residents want to help. We as a society want to lift
our poor and downtrodden up off the street and into a
better life. Martin, though well-intentioned, does the
opposite.
It removes a crucial tool from local
governments’ toolbelts, making the connection
between shelter-resistant homeless and critical
services nearly impossible. As our homeless stay on
the
streets
longer,
they
are
irreparably
psychologically and physically affected; crime
increases, diseases spread, homelessness becomes
entrenched, acts of violence become commonplace, and
rampant drug use further compounds the challenges
facing the homeless, making it nearly impossible for
people to move out of homelessness and gain economic
stability. And as we as citizens are forced to sit by and
watch it happen, our humanity slips away. Amici urge

22 Theo Hayes, Crews working to offer resources to homeless
during bitter cold, WBAL TV 11, show transcript (Jan. 30, 2019,

5:17 PM), https://www.wbaltv.com/article/baltimore-homelessbitter-cold-conditions/26090995.

28

this court to grant review and address this most
pressing crisis.
Respectfully Submitted,
MATTHEW D. UMHOFER
ELIZABETH A. MITCHELL
Counsel of Record
SPERTUS, LANDES, & UMHOFER LLP
617 W. 7TH STREET, SUITE 200
LOS ANGELES, CA 90017
(213) 205-6520
emitchell@spertuslaw.com
SEPTEMBER 24, 2019

29

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify
that the document contains 5,985 words, excluding
the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 24, 2019
___________________________
Elizabeth A. Mitchell
Spertus, Landes, & Umhofer LLC

30

APPENDIX OF EXHIBITS
TABLE OF CONTENTS
Exhibits A-M ........................... Los Angeles, California
Exhibits N-S ................................. Seattle, Washington
Exhibits T-X ............................ Sacramento, California
Exhibits Y-CC ........................... Hollywood, California
Exhibits DD-HH .....................................Austin, Texas
Exhibits II-MM ................................... Chicago, Illinois
Exhibits NN-PP ......................... Indianapolis, Indiana
Exhibits QQ-RR .......................... Baltimore, Maryland

Exhibit A: Los Angeles, California

Exhibit A

Exhibit B: Los Angeles, California

Exhibit B

Exhibit C: Los Angeles, California

Exhibit C

Exhibit D: Los Angeles, California

Exhibit D

Exhibit E: Los Angeles, California

Exhibit E

Exhibit F: Los Angeles, California

Exhibit F

Exhibit G: Los Angeles, California

Exhibit G

Exhibit H: Los Angeles, California

Exhibit H

Exhibit I: Los Angeles, California

Exhibit I

Exhibit J: Los Angeles, California

Exhibit J

Exhibit K: Los Angeles, California

Exhibit K

Exhibit L: Los Angeles, California

Exhibit L

Exhibit M: Los Angeles, California

Exhibit M

Exhibit N: Seattle, Washington

Exhibit N

Exhibit O: Seattle, Washington

Exhibit O

Exhibit P: Seattle, Washington

Exhibit P

Exhibit Q: Seattle, Washington

Exhibit Q

Exhibit R: Seattle, Washington

Exhibit R

Exhibit S: Seattle, Washington

Exhibit S

Exhibit T: Sacramento, California

Exhibit T

Exhibit U: Sacramento, California

Exhibit U

Exhibit V: Sacramento, California

Exhibit V

Exhibit W: Sacramento, California

Exhibit W

Exhibit X: Sacramento, California

Exhibit X

Exhibit Y: Hollywood, California

Exhibit Y

Exhibit Z: Hollywood, California

Exhibit Z

Exhibit AA: Hollywood, California

Exhibit AA

Exhibit BB: Hollywood, California

Exhibit BB

Exhibit CC: Hollywood, California

Exhibit CC

Exhibit DD: Austin, Texas

Exhibit DD

Exhibit EE: Austin, Texas

Exhibit EE

Exhibit FF: Austin, Texas

Exhibit FF

Exhibit GG: Austin, Texas

Exhibit GG

Exhibit HH: Austin, Texas

Exhibit HH

Exhibit II: Chicago, Illinois

Exhibit II

Exhibit JJ: Chicago, Illinois

Exhibit JJ

Exhibit KK: Chicago, Illinois

Exhibit KK

Exhibit LL: Chicago, Illinois

Exhibit LL

Exhibit MM: Chicago, Illinois

Exhibit MM

Exhibit NN: Indianapolis, Indiana

Exhibit NN

Exhibit OO: Indianapolis, Indiana

Exhibit OO

Exhibit PP: Indianapolis, Indiana

Exhibit PP

Exhibit QQ: Baltimore, Maryland

Exhibit QQ

Exhibit RR: Baltimore, Maryland

Exhibit RR

